Taylor Ann Rausch Meehan
Counsel of Record
Consovoy McCarthy PLLC
1600 Wilson Blvd.
Suite 700
Arlington, VA 22209
taylor@consovoymccarthy.com
703-243-9423
Party name: Kevin Owen McCarthy, et al.
Attorneys for Petitioners
Douglas Neal Letter
Counsel of Record
Office of General Counsel, U.S. House of Representatives
5140 O'Neill House Office Building
Washington, DC 20515
douglas.letter@mail.house.gov
202-225-9700
Party name: Nancy Pelosi, et al.
Attorneys for Respondents

